                         U.S. DEPARTMENT OF LABOR

                              Office of Inspector General



                     PWBA Needs to Improve Oversight of
                   Cash Balance Plan Lump Sum Distributions




                                                         U.S. Department of Labor
                                                         Office of Inspector General
                                                         Report No. 09-02-001-12-121
                                                         Date: March 29, 2002




U.S. Department of Labor - Office of Inspector General
                               TABLE OF CONTENTS

                                                                                    Page

       EXECUTIVE SUMMARY                                                            1



       INTRODUCTION                                                                 3

                       Background
                       Determining Cash Balance Plan Accrued Benefits

       OBJECTIVE, SCOPE, AND METHODOLOGY                                            8

                       Objective
                       Scope and Methodology

       FINDINGS AND RECOMMENDATIONS                                                 10

                      Conversions Adequately Protected Accrued Benefits
                      Cash Balance Plans are Underpaying Benefits after
                             Conversion
                      Factors Contributing to Participant Underpayments
                      Conclusion: Cash Balance Plans are Underpaying Benefits
                             After Conversion
                      Recommendations
                      PWBA Response Comments
                      OIG Comments

       APPENDIX 1             Conversion Dates, Participants and Assets for Plans
                              in Audit Sample                                       20

       APPENDIX 2             Methodology for Estimating Potential Underpayments    22

       APPENDIX 3             Acronyms                                              24

       APPENDIX 4             PWBA Comments                                         25




U.S. Department of Labor - Office of Inspector General

                                                i
                             EXECUTIVE SUMMARY

Industry estimates state that since the mid-1980s between 300 and 700 traditional defined benefit
pension plans have converted to cash balance plans. We could find no authoritative numbers.
However, one estimate indicates these conversions affect over 8 million working Americans and
involve pension assets of over $334 billion. OIG conducted an audit to determine if the Pension
and Welfare Benefits Administration’s (PWBA) oversight of these cash balance plans was
adequately protecting participants’ benefits. In making this determination, we audited a
judgmental sample of 60 converted plans to see if plan administrators had complied with the
Employee Retirement Income Security Act of 1974, as amended (ERISA).

PWBA has devoted considerable resources on cash balance plans focusing on disclosure and
education. PWBA also recently initiated a project regarding conversion fees, a potential
prohibited transaction. PWBA, however, has not devoted significant enforcement resources to
protecting participants’ benefits in cash balance plans.

We audited the conversion and distribution processes in 60 converted cash balance plans to
determine if PWBA needed to increase enforcement efforts. Our analysis of the 60 converted
cash balance plans found that the conversions adequately protected benefits from earlier plans.
However, in 13 of those 60 plans, we found that workers who left employment before normal
retirement age did not receive all the accrued benefits to which they were legally entitled; being
underpaid an estimated $17 million each year. Applying the same estimation model used in our
judgmental sample to the estimated 300 to 700 defined benefit plans that have converted to cash
balance plans, we estimate that workers may be underpaid between $85 million and $199 million
annually.

We believe that additional PWBA oversight and intervention could help preve nt future
underpayments to workers in cash balance plans and correct past underpayments, where possible,
within ERISA time constraints. We, therefore, recommend the Assistant Secretary for Pension
and Welfare Benefits strengthen PWBA’s oversight of cash balance pension plans by:

   1. Directing more enforcement resources to protecting cash balance plans’ participant
      benefits.

   2. Initiating specific enforcement action on the 13 plans with forfeitures identified in this
      audit.

   3. Working with IRS to develop improved guidance for plan administrators in calculating
      participant accrued benefits.

In its March 26, 2002, response to the draft audit report, PWBA identified potential legal
restrictions to its ability to enforce ERISA §§203 and 205. PWBA stated that, because of these
restrictions, it needed the Department of the Treasury’s official view on the potential violations
noted in our draft audit report to properly evaluate our recommendations. PWBA had forwarded



U.S. Department of Labor - Office of Inspector General

                                                 1
our audit results to the Department of the Treasury but had not received a response as of
March 26.

PWBA did provide interim comments pending the official response from the Department of the
Treasury. PWBA disagreed with the first recommendation. PWBA disagreed with our
methodology in determining sample size and extrapolating the error amount. PWBA questioned
our conclusions and stated that without a broader survey of the problem and more detailed
information it could not commit to redirecting enforcement resources to cash balance plan
benefit calculations.

We continue to believe that PWBA should initiate some sort of enforcement effort with respect
to participant benefits in cash balance plans. As to the legal restrictions noted by PWBA, we
believe that ERISA §502 (b)(1) may not prevent PWBA from pursuing enforcement as a breach
of fiduciary duty under ERISA §404. We believe that PWBA should request a formal opinion
from the Solicitor of Labor to determine if PWBA does have such authority.

Also, despite the lack of a statistical approach, we found 13 plans with underpayments to
participants out of 60 plans reviewed. Under any sampling or targeting method, statistical or
judgmental, this is a disturbing finding. Even disagreeing with our estimate of overall impact,
the fact that problems existed in 13 plans out of 60 reviewed should move PWBA into
enforcement action. We believe this should be a cause of concern for PWBA and continue to
recommend additional enforcement resources be devoted to participant benefits in cash balance
plans.

PWBA indicated general agreement with the second and third recommendations. PWBA agreed
to take appropriate enforcement action on the 13 plans. The specific action is dependent on the
response from the Department of the Treasury. PWBA also agreed to work with the IRS in
determining what guidance should be developed on calculating lump sum distributions of
accrued benefits in cash balance plans. We have no further comment until we evaluate PWBA’s
actions after PWBA receives Treasury’s response.




U.S. Department of Labor - Office of Inspector General

                                                2
                                    INTRODUCTION


B ackground

Private pension plans are governed primarily by two laws: The Employee Retirement Income
Security Act of 1974 as amended (ERISA), and the Internal Revenue Code (IRC).

Three Federal agencies, the Pension and Welfare Benefits Administration (PWBA), the Internal
Revenue Service (IRS), and the Pension Benefit Guaranty Corporation (PBGC), are primarily
responsible for enforcing laws related to private pensions. PWBA enforces ERISA's reporting
and disclosure provisions and fiduciary stand ards that cover how plans should operate in the best
interest of participants. The IRS enforces participation, vesting, and funding standards for
pension plans. PBGC insures the benefits of participants in most private defined benefit pension
plans.

ERISA establishes pension plans as either defined benefit or defined contribution plans.
Separate requirements govern each type of plan.

Most defined benefit plans use a final average pay formula that is based on years of service,
average earnings over a specific number of years, and a multiplier. For example, a final average
pay formula might determine benefits on the basis of 1.25 percent multiplied by years of service
completed, multiplied by the employee's average salary over the past 5 years of service. Defined
benefit plans typically express an accrued pension benefit as an annuity beginning at the
plan-specified normal retirement age. The employer, as the plan sponsor, is responsible for
funding the promised benefit, investing and managing the pla n assets, and bearing the investment
risk.

Under defined contribution plans , such as 401(k) plans, workers have individual accounts to
which employers, employees, or both make periodic contributions. Defined contribution plans
base benefits on the cont ributions to, and investment returns on, these accounts. Employees
invest their accounts, at least in part, as they choose and bear the risk of poor investment
performance.

Cash balance plans are hybrid plans because legally they are defined benefit plans but include
features that resemble defined contribution plans. As defined benefit plans, cash balance plans
must offer retirement benefits in the form of a series of payments for life – an annuity
determined by several actuarial factors. However, like a defined contribution plan, cash balance
plans express benefits as an "account balance."

In a cash balance pension plan, each participant has a hypothetical account. The plan credits
funds to that "account" over time, consisting of two variables: (1) the employer's hypothetical



U.S. Department of Labor - Office of Inspector General

                                                 3
"contributions," generally based on pay and (2) hypothetical earnings expressed as interest. The
plan usually expresses employer "contributions" as a percentage of salary. Interest credits may
be at a fixed interest rate, but more often, they are tied to a variable index - for example, U.S.
Government securities.

Hypothetical account earnings are not related to investment returns on assets in the plan's
pension trust, and hypothetical accounts are not credited with the plan's actual investment gains
or losses. Employees neither own these "accounts" nor generally make investment decisions.

 An estimated 300 to 700 plans have          Industry estimates on the number of pension plans
 converted to cash balance plans             that sponsors have converted to cash balance plans
                                             since the mid-1980s generally range between 300
and 700. One estimate indicates that conversions have affected over 8 million American workers
and involve pension plan assets of over $334 billion. The reasons for converting include: ease
and reduced cost of plan administration, portability of benefits, and plan attractiveness to
younger workers.

 Concerns about cash balance plans          Prompted by concern from members of the
                                            Congress and by participants in plans that were
converted, Federal agencies are now reviewing age discrimination and other issues involving
cash balance plans. Within the past few years, more than 800 workers and retirees have filed age
discrimination charges with the Equal Employment Opportunity Commission (EEOC)
concerning cash balance plans. The EEOC is continuing to investigate these charges.

The IRS is currently reviewing tax qualification issues raised by cash balance plan conversions.
In September 1999, the IRS announced that it would begin requiring a technical review by IRS
headquarters of cash balance plan conversions. Although numerous companies have submitted
cash balance plan conversions, IRS headquarters has not approved any since September 1999. In
October 1999, the IRS announced that it was soliciting public comments on the conversion of
traditional defined benefit formulas to cash balance formulas.


Determining Cash Balance Plan Accrued Benefits

The fact that cash balance plans are legally defined benefit plans is critical to determining
participants’ accrued benefits. Under ERISA, the accrued benefit of a defined contribution plan
is simply “the balance of the individual’s account.” However, for a defined benefit plan,
including cash balance plans, ERISA requires the benefit to be expressed in the form of an
annual benefit beginning at normal retirement age. Generally, this means an annuity beginning
at age 65. In most defined benefit plans, the amount of the annuity is small at the beginning of
plan participation and grows larger the longer the participant stays with the sponsor. At any
point during a career, a participant’s future benefit is determinable.




U.S. Department of Labor - Office of Inspector General

                                                 4
Under ERISA §203, 1 an employee’s right to this future benefit must become non-forfeitable.
This means that, while an employer may terminate or amend a pension plan, the sponsor may
never reduce or eliminate any benefits already earned by a participant, including interest credits
to retirement age.2 Therefore, any benefit distribution must recognize future interest credits as
part of the accrued benefit.

ERISA minimum lump                For participants leaving employment before normal
sum distributions                 retirement age, the most common form of payment is a lump
                                  sum distribution. ERISA §205 requires that such a lump sum
distribution must be, at a minimum, the present value of the normal retirement annuity.

Therefore, to make lump sum distributions in accordance with ERISA §§203 and 205, a plan
must project a participant’s cash balance account, with interest credits, to normal retirement age.
The plan must then convert the projected account balance to the normal retirement benefit,
generally an annuity. This normal retirement benefit then must be discounted to present value at
the date of distribution, using interest rate and mortality table assumptions. This complex
process produces the minimum distribution under the requirements of ERISA.

To protect participants, ERISA §205 specifies valuation factors in discounting retirement
benefits. For example, for distributions in 2000 and 2001, ERISA §205 establishes the 30-year
Treasury securities interest rate as the maximum discount rate in computing present value. 3 For
this same time period, ERISA §205 also required the use of the 1983 Group Annuity Mortality
unisex table in present value computations. The present value of the annuity computed using this
interest rate and mortality table was the minimum that the plan could pay to a participant.

This minimum lump sum payment may be larger than the cash balance account. This occurs if
the plan’s interest credit rate is larger than the legal discount rate, producing an effect known as
“whipsaw.” The following figure shows how whipsaw works, assuming an interest credit rate
and annuity conversion rate of 6 percent and a discount rate of 5 percent.




1
  ERISA §§203 and 205 are substantially identical to IRC §§411 and 417. Therefore, throughout this report,
reference to ERISA §§203 and 205 should be interpreted as also referring to IRC §§411 and 417.
2
  These benefits attributable to interest credits are within the definition of accrued benefits under ERISA §203.
3
  In the past, ERISA had required use of a PBGC rate.


U.S. Department of Labor - Office of Inspector General

                                                           5
Figure 1: Whipsaw Effect


                                                                           Projected Age 65
   Account Balance of      Project Account Balance Forward With 6         Balance of $75,900
        $10,000                     Percent Interest Credits
       At Age 30           Interest Credits
                                                                                       Convert
                                                                                       to an annuity
                                                                                       at 6 percent




 Minimum Lump                                                             Annuity Equivalent
 Sum Benefit of                  Discount to Present Value at 5 Percent   of $7,171 per year
 $13,583




                     To implement the complex requirements of ERISA §§203 and 205, and the
IRS Notice 96-8      corresponding IRC sections, the IRS issued Notice 96-8, dated January 18,
                     1996. This Notice applies only to cash balance plans. The Notice explains
the present value calculation requirements for the minimum lump sum distribution allowed by
ERISA. More specifically, the Notice explains plans must:

   •   project cash balance accounts to normal retirement age with interest credits,

   •   determine the normal retirement benefit from this account balance, and then

   •   determine the minimum benefit by discounting to present value using factors specified in
       ERISA §205.

The Notice states that this minimum figure may be more than the hypothetical cash
balance. If so, the plan must pay the participant the higher amount.

Notice 96-8 recognized that it was the intent of most cash balance plans to use the account
balance as the accrued benefit. The Notice pointed out that in order for plans to do this and
comply with ERISA §§203 and 205, the plans’ interest credit rates, annuity factors, and the
ERISA §205 rates would have to be the same. The plan would then project the cash balance
account forward, convert it to an annuity, and discount it back using the same rates.

Notice 96-8 recognized that other interest rates could be used and be reasonably close to the
ERISA §205 rate. In an effort to create some “safe harbor” rates, Notice 96-8 identified eight
other interest indices that may be used and that the IRS would assume to equal the ERISA


U.S. Department of Labor - Office of Inspector General

                                                    6
required discount rate. The Notice further allowed a margin for each index that would be
acceptable as reasonably close to the ERISA §205 rate. The Notice stated that if a plan’s interest
credit rate was one of the identified indices and was within the margins identified, the plan could
assume the projection and discount interest rates were the same. Then, assuming the plan used
the appropriate annuity factors, the amount in the cash balance account was considered the same
as the accrued benefit.

Although the IRS has not issued the regulations proposed in the Notice as “final,” the courts
have upheld or applied the concepts of the Notice. 1 Moreover, the courts have applied the
Notice’s concepts to cash balance plans converted before the IRS issued the Notice.
Specifically, in Lyons v. Georgia Pacific Corporation, the defendant stated that until the Notice
was issued, all it was required to distribute as a lump sum was the amount in the individual
employee’s hypothetical account. The court disagreed, stating:

                   We are skeptical about whether lack of guidance and direction can
                   be defense to this type of action by a plan participant, and in any
                   event Treasury Regulation 1.411(a)-11 when read against the
                   Plan’s own terms provides enough guidance that Georgia-Pacific is
                   liable to participants even for distributions made before the
                   issuance of IRS Notice 96-8.

The Treasury Regulation referred to was issued in 1988. Moreover, the court stated that
employers had been put on further notice with Treasury Decision 8360 that was issued in 1991.
According to the court, both of these issuances were clear enough to create liability even before
Notice 96-8.




1
    See Lyons v. Georgia Pacific Corporation, and Esden v. Bank of Boston.


U.S. Department of Labor - Office of Inspector General

                                                         7
              OBJECTIVE, SCOPE, AND METHODOLOGY


Objective

Our audit objective was to determine if PWBA’s oversight of cash balance plan conversions
adequately protected participant benefits.

Scope and Methodology

In order to achieve our objective, we identified PWBA’s level of oversight and reviewed a
judgmental sample of 60 converted plans to determine if there was a need to improve oversight.

We met with the Assistant Secretary for PWBA and PWBA’s enforcement staff to discuss
PWBA’s enforcement activities and involvement with cash balance plan policy issues. During
the audit, we discussed evolving issues with enforcement staff and provided PWBA extensive
audit information on plans reviewed and our conclusions.

We identified defined benefit plans that sponsors had converted from traditional defined benefit
plans to cash balance plans. We determined how accrued benefits from the earlier plans were
calculated and whether plans adequately protected those benefits. We also evaluated how the
cash balance plans determined participant benefits and how the plans paid those benefits to
participants.

We attempted to determine how many converted cash balance plans existed. We contacted
PWBA, the General Accounting Office, the IRS, and several private organizations and were
unable to obtain a reliable count. We also determined that this information was not readily
available in the ERISA information system. The ERISA information system contains the form
5500 information plans filed under the IRC. However, the available data did not identify cash
balance plans specifically. In an attempt to develop a statistically valid sample of converted cash
balance plans, we identified 14,942 large defined benefit plans (more than 100 participants) that
had filed form 5500 for 1998. Using a statistically valid approach, we developed a random
sample of 191 plans. By contacting each plan from the sample, we identified 23 converted plans.
However, after contacting the 23 plans, we found the information about whether the plan was a
converted cash balance plan was not reliable and decided the statistical sampling approach could
not be used.

We again used the 1998 ERISA information and searched for plans having a title that included
“cash balance.” This search resulted in the identification of 136 plans, exclusive of the 23 plans
previously identified. By eliminating plans with recent PWBA investigations and contacting
plans to determine if they, in fact, were converted cash balance plans, a judgmental sample of 60
plans was selected. (See Appendix 1 for plan size and conversion date.) We either visited or
obtained records from each of these 60 cash balance plans. We analyzed the records and


U.S. Department of Labor - Office of Inspector General

                                                 8
discussed our analysis and conclusions, as needed, with plan administrators and administrator
representatives, including attorneys and actuaries. We also discussed our conclusions with
PWBA and IRS during the audit.

To evaluate compliance with ERISA and IRS regulations, we held numerous discussions with
IRS actuarial and legal representatives from the IRS Office of Employee Plans and Tax Exempt
Organizations. We also held discussions during the audit with PWBA representatives. In
addition, we contracted with an enrolled actuary to provide actuarial expertise as necessary.

We conducted our audit fieldwork from September 2000 through January 2002, and held an exit
conference on January 10, 2002. During the week of January 10, 2002, we allowed PWBA to
copy all our documents relating to the plans that we had concluded had underpaid their
participants so that PWBA could review our findings and calculations in detail.

We performed our work according to Government Auditing Standards issued by the Comptroller
General of the United States. Our audit included tests of policies and procedures, plan
documents, plan records and other auditing procedures we considered necessary in the
circumstances.




U.S. Department of Labor - Office of Inspector General

                                                9
                       FINDINGS AND RECOMMENDATIONS

We concluded that PWBA needs to take a more active role in protecting cash balance plan
participant benefits. We reviewed PWBA’s efforts relative to cash balance plans. We found that
PWBA primarily has focused on participant disclosure and education. PWBA has also reviewed
conversion fees. PWBA, however, has not directed significant enforcement resources at
protecting participant benefits either by (1) reviewing the way plans calculate accrued benefits
for those employees who leave before normal retirement age or (2) working with the IRS to
improve the clarity and thoroughness of the current guidance on computing participant benefits,
i.e., IRS Notice 96-8.

Our analysis of a judgmental sample of 60 traditional defined benefit plans found that a
significant number of cash balance plan administrators improperly computed lump sum
distributions requirements and the ERISA oversight processes were not detecting and correcting
the lack of compliance. More specifically, we found:

      •    the 60 conversions adequately protected benefits from earlier plans, and

      •    13 of the 60 plans were underpaying workers who left employment before normal
           retirement age.

These underpayments constitute forfeiture of accrued benefits in violation of ERISA §203. For
the plans reviewed, we estimate that cash balance plans may be underpaying participants about
$17 million per year. Using the same estimation model that we used in our judgmental sample
and applying it to the industry estimates of 300 to 700 plans converted since the mid-1980s, we
estimate a potential underpayment of lump sum benefits from $85 million to $199 million
annually. 1

Additional PWBA oversight would help correct past and prevent future underpayments. Also,
PWBA needs to work with the IRS to provide better guidance for plan administrators to protect
participants’ accrued benefits.

 Conversions Adequately Protected
 Accrued Benefits

For the 60 plans in our sample, we concluded that the conversions from traditional defined
benefit plans to cash balance plans adequately protected benefits from earlier plans. Plan
sponsors either (1) converted accrued benefits from earlier plans into cash balance accounts
using various present value factors or (2) kept the accrued benefits separate. In either situation,
all sponsors ensured that benefits paid after plan conversion exceeded accrued benefits from
earlier plans as required by ERISA.

1
    This is a non-statistical estimate. See Appendix 2 for the methodology used to estimate potential underpayments.


U.S. Department of Labor - Office of Inspector General

                                                          10
Cash Balance Plans are Underpaying
Benefits after Conversion

We found 13 of the 60 cash balance plans, or 22 percent, were underpaying participants their
accrued benefits when workers left the cash balance plans before normal retirement age.
Participant underpayments ranged up to $55,629. The plans underpaid participants because they
made errors in (1) projecting and discounting participant benefits, (2) annuity conversion factors,
(3) cost-of- living allowances (COLA), and (4) opening balance calculations. 1


Eight plans did not properly project and            The most frequent problem found was plans not
discount participant bene fits                      following the present value projection and
                                                    discount procedures set forth in Notice 96-8.
Notice 96-8 set forth methods that allowed plans to use a hypothetical account balance as the
accrued benefit. The Notice also provided instructions to project account balances in other cases.
Yet some sponsors chose plan designs which varied significantly from the concepts in Notice 96-
8. Those sponsors continued to reason their cash balance plan design allowed them to pay the
hypothetical account balance as the accrued benefit. The result was that plans did not compute
the present value of the retirement benefit at normal retirement age - even though the present
interest credit rate significantly exceeded the discount rate specified under ERISA §205.
For example, one sponsor established its cash balance plan with an annual interest credit rate of
8 percent. Notice 96-8 does not allow such a fixed rate to be a “safe harbor” rate. In fact, during
the 10 years since the plan’s conversion, the legal rate set by ERISA §205 for discounting to the
present value has ranged from 5.06 percent to 7.97 percent. This means the plan’s interest credit
rate exceeded the discount rate under ERISA §205 for the last 10 years. Therefore, in all cases,
the projection of a cash balance account, at 8 percent to normal retirement age, followed by a
discount at between 5.06 percent and 7.97 percent to present value will produce a higher benefit
than the account balance. While this is an acceptable plan design under ERISA, according to
Notice 96-8, the plan cannot pay the account balance as the accrued benefit and be in
compliance. The plan is required to compute the future value of the benefit at eight 8 percent
and re-compute the present value at the ERISA legal rate. However, the plan did not compute
the present value of the retirement benefit at normal retirement age as required by ERISA. As
the following table shows, the plan underpaid two of the participants we tested.

                        Participant        Account            Present         Amount
                                           Balance             Value         Underpaid
                                            Paid
                              A              $94,853           $98,476             $3,623
                              B              $15,335           $30,961            $15,626



1
  The errors in opening balance calculations violated plan documents but did not violate accrued benefit
requirements of ERISA § 203.


U.S. Department of Labor - Office of Inspector General

                                                         11
For both participants, the underpayment was significant, especially when the compounding effect
on retirement income is considered. Participant B was 39 when he received his cash balance
distribution. The figure below shows the effect his underpayment could have assuming he
reinvested the distribution into another retirement instrument and received average market
returns:

Figure 2: Estimated Cumulative Underpayment 1

                    $250,000

                    $200,000

                    $150,000                                                          Actual
                                                                                      Correct
                    $100,000

                      $50,000

                              $0
                                      40   45    50    55        60   65

                                                      Age



By age 65, the cumulative underpayment to this participant will be over $100,000.

In this case, the plan administrator reasoned that the plan document did not guarantee the higher
rate in future years and actually specified that the plan would use a lower rate for projecting
accrued benefits. The plan administrator stated that they had followed the plan documents.

In another plan, the sponsor allowed participants to select hypothetical investments and then set
each participant’s interest credit rate at the rate of return of the hypothetical investments. The
interest credit rate for the participants in our sample varied from 9.01 percent to 16.5 percent.
This interest credit rate is not one of the “safe harbor” rates of Notice 96-8 and, thus, would
require a projection and discount to arrive at a present value of the accrued benefit. The plan
would not be able to pay the cash balance account as the lump sum benefit. The plan
administrator told us that the plan used the ERISA §205 rate for projection purposes and this
made the account balance the actuarial equivalent of the normal retirement benefit. However,
Notice 96-8 specifically states this would violate ERISA.



1
  This figure assumes an 8 percent rate of return for long-term investment. According to the National Center for
Policy Analysis, this approximates the lowest rate of return for any 65 consecutive years. The average rate of return
for the period 1926 through 2000 was about 11 percent.


U.S. Department of Labor - Office of Inspector General

                                                            12
Notice 96-8 states:

           . . . in determining the amount of an employee’s accrued benefit, a
           forfeiture . . . . will result if the value of future interest credits is projected
           using a rate that understates the value of those credits or if the plan by its
           terms reduces the interest rate or rate of return used for projecting future
           interest credits.

In discussing plans when the interest credit rate is higher than the ERISA §205 rate, Notice 96-8
states:

           If such a plan provided that the rate used for projecting the amount of
           future interest credit rates were no greater than the interest rate under
           417(e)(3), the projection would result in forfeiture.

This is exactly what this plan accomplished. While actually accruing benefits at higher rates, the
administrator reduced the projection of future interest credits to no greater than the 417(e) rate
and paid the account balance as the benefit. The administrator’s reasoning was that the plan
stated the balance represented the accrued benefit and this allowed the payment as full benefit.
The plan also stated that it had a qualification letter from the IRS, which provided IRS approval
of the payment method.

We do not agree with either argument. A plan provision that violates ERISA is invalid, as legal
requirements take precedence over plan provisions. Also, the courts have held that an IRS
qualification letter does not protect a plan as to participant benefits. In one case, Esden v. Bank
of Boston, the plan sponsor raised this defense and the court concluded that the qualification
letter protects the plan from tax disqualification, but does not protect the plan as to participant
benefits that may be improperly paid.

Out of the 60 plans in our judgmental sample, eight misapplied the projection and discount
concepts of ERISA §203, as explained in IRS Notice 96-8. In general, we found that sponsors
had intended to implement plans where they could pay benefits that were equal to the cash
balance account but misconstrued Notice 96-8.

We obtained responses from the eight plans. All eight reasoned that they could pay their cash
balance accounts as accrued benefits because of the plan design. The eight pointed to a plan
provision that allowed this although none of these plans used “safe harbor” rates under Notice
96-8. None of the plans could explain how their plan provision preempted ERISA provisions,
nor could they explain how lowering the interest credit rate for projection purposes did not
violate Notice 96-8.

Three of these plans questioned applying Notice 96-8 to their distributions because the Notice
was not issued until 1996 and contained only proposed rules. As stated before, the courts have
held that earlier regulations were clear enough to establish liability for plan participants under
cash balance plans and that Notice 96-8 did not create any new concepts.




U.S. Department of Labor - Office of Inspector General

                                                    13
Three plans did not recognize effects of           Three plans underpaid participants because they
annuity conversion factors                         used annuity conversion factors that prevented
                                                   them from claiming “safe harbor.” In order to
be “safe harbor,” both the interest credit rate and the annuity conversion rate have to approximate
the ERISA § 205 rate.

We found three plans that used “safe harbor” interest credit rates, but had annuity conversion
factors that did not meet the Notice 96-8 requirement for “safe harbor.” In one plan, the sponsor
set the annuity conversion at 7 percent while the ERISA §205 rate was 5.78 percent. The higher
interest rate produces a higher present value. For example, one participant had a cash balance
account of $30,786 and the plan paid that amount as the accrued benefit since the plan had a
“safe harbor” interest credit rate. However, when we calculated the present value recognizing
the 7 percent annuity conversion factor, the actual present value was $31,986 or an increase of
$1,200.

In another plan, the cash balance accounts were to be converted to annuities using the PBGC
interest rate with a mortality table set back 2 years. Because this combination of interest rates
and mortality produced larger annuities, the present value exceeded the cash balance account.
For example, one participant received $23,460 (the account balance) upon termination.
However, after projecting the balance to normal retirement age, converting to a normal annuity,
and discounting to present value using the maximum rates, we determined that the participant
should have received $26,034. This was a $2,574 increase or an 11 percent difference.

All three plans had “safe harbor” interest credit rates but overlooked the fact that their annuity
conversion factors increased the accrued benefit present value.

Two of the three plan administrators disagreed with our conclusions. One stated that we had
misinterpreted the plan’s normal form of benefit and used the wrong annuity factors. Another
stated that they had complied with the plan documents and that Notice 96-8 was not the final
authority on the issues.

The third administrator accepted our position on the annuity factors but disagreed that final
calculations produced forfeitures due to COLA considerations. In doing the recalculations with
our annuity factors, the administrator used COLA percentages different than those specified in
the plan documents.

Despite the plans’ responses, we still conclude that prohibited forfeitures occurred in each plan.
In two of the cases, plan administrators have provided explanations that are not consistent with
the plan documents. In the other case involving whether Notice 96-8 is the final authority on
these issues, the Treasury regulations and the recent court decisions all support application of
Notice 96-8 principles regardless of the time period involved.




U.S. Department of Labor - Office of Inspector General

                                                 14
COLAs were excluded in two plans          In two plans, we found that plan administrators had
                                          excluded guaranteed COLA increases from their present
value calculations. The plans based their present value calculation on non- increasing annuities,
although the plans specified that the normal form of benefit was an increasing annuity.

In one case, the plan documents specified that the normal form of retirement benefit was an
increasing life annuity. The plan documents related the annual annuity increases to the yearly
increases in the Consumer Price Index, which has averaged about 4 percent over the last 5 years.
This means that a 65 year old retiree could expect the annuity to increase over 50 percent during
his or her lifetime. This extra value, although included as a normal retirement benefit, was not
included in lump sum calculations. Instead, the plan used a non- increasing (constant) annuity for
making lump sum payments to participants.

The difference in valuation can be substantial. One participant’s present value increased from
$16,380 to $18,563, a $2,183 or 13 percent increase. Other participants had similar increases.

The courts have held that COLA’s are an accrued benefit. In Laurenzano v. Blue Cross, the court
held that if a defined benefit plan normally provides a life annuity that includes a COLA, a lump
sum distribution in lieu of the annuity must include the present value of the projected COLA
payments.

The plans did not agree with our conclusions. One plan stated that we had overstated the value
of the COLA and provided complex actuarial calculations adjusting the COLA with factors not
mentioned in the plan documents. The other plan also disagreed, stating that the plan was
designed to allow payment of the account balance as the accrued benefit.

                                                 One of the plans that excluded the guaranteed
Opening cash balance account amounts             COLA also miscalculated the opening cash
 were miscalculated in one plan
                                                 balance account amounts.

Generally, no regulation governs the initial cash balances in a conversion process. ERISA §203
does require that benefits accrued in the earlier plan be protected. However, the sponsors can do
this outside the cash balance plan. In this case, all participants would start the cash balance plan
with a zero balance.

In most plans we reviewed, however, sponsors attempted to start participants’ cash balance
accounts with the actuarial equivalent of their accrued benefits from the earlier plan. Once this
design is included in the cash balance plan, plan administrators must follow the plan documents.

We found one plan that did not establish opening balances as required by the cash balance plan
documents. In this case, the cash balance plan documents stated that opening balances would be
calculated using the earlier plan’s actuarial factors. These factors were the PBGC interest rates
and a 1976 Project Experience Table for mortality. Instead, the plan used the PBGC rates and
the 1951 General Annuity Tables for mortality. This caused significant differences. The plan
understated opening balances for the participants in our sample by over $5,000 each.


U.S. Department of Labor - Office of Inspector General

                                                 15
The sponsor informed us that the actuarial factors included in the cash balance plan were
included by mistake. The sponsor stated that the factors actually used were the ones that were
supposed to have been in the cash balance plan documents. It is our position that the plan
documents control the participant’s benefits and the plan should use those to compute the
opening balances.


Need for Additional Oversight

We determined that greater intervention by PWBA and improved guidance would provide
additional protection to participant benefits. We found that PWBA has focused on participant
disclosure issues and has spent considerable resources meeting with employee groups and
reviewing specific plan disclosure issues. PWBA has also developed information for
participants and posted it on its website. Recently, PWBA initiated a project to examine whether
plan funds paid conversion fees, a potential prohibited transaction. PWBA, however, has not
directed significant enforcement resources to protecting participant benefits.

Another facet of enforcement oversight is the clarity and thoroughness of the current guidance on
computing participant benefits. Notice 96-8 describes the application of IRC §§411 and 417(e)
(ERISA §§203 and 205) to lump sum distributions under cash balance plans. While this
guidance clearly explains that plans must project accrued benefits to normal retirement age and
discount to present value, it does not clearly specify how this is to be done.

Specifically, the Notice recognizes that cash balance plans use numerous variable indices as
interest credit rates, and establishes certain indices as “safe harbor.” Plans using other rates
cannot assume account balances are equal to accrued benefits. According to the Notice, these
plans must project interest credit rates to normal retirement age and discount them using the
ERISA §205 rate to determine if the present value of a participant’s benefit is greater than the
account balance.

If a plan is using a variable interest rate, however, the Notice does not specify how to determine
the interest rate to use in projection. According to IRS officials, the plan must use a
“reasonable” method to determine the interest credit rate to project. One reasonable method
suggested was to use the most recent interest credit rate. The courts have also used this method.
However, Notice 96-8 does not include guidance on this.

Although IRS has the exclusive authority to issue regulations regarding participant benefits, and
PWBA is bound to follow the IRS regulations, PWBA has concurrent enforcement authority
over participant benefits and can work with the IRS on regulatory issues.




U.S. Department of Labor - Office of Inspector General

                                                16
Conclusion: Cash Balance
Plans are Underpaying
Benefits After Conversion

Participants in converted cash balance plans may be underpaid millions of dollars in pension
benefits each year. Cash balance plans are improperly computing lump sum distributions in a
significant number of cash balance plans. As a result, we estimate that cash balance plan
participants who leave employment before normal retirement age may be underpaid as much as
$199 million annually.

Recommendations

Greater PWBA intervention and improved guidance would provide additional protection to cash
balance plan participant benefits. We recommend that the Assistant Secretary for Pension and
Welfare Benefits:

1. Direct more enforcement resources toward protecting participant benefits in cash balance
   plans.

2. Initiate specific enforcement action on the 13 plans with potential forfeitures identified in this
   audit.

3. Work with the IRS to develop improved guidance for cash balance plan administrators in
   determining participant accrued benefits.

PWBA Comments

PWBA provided a detailed interim response on each recommendation. (See Appendix 4 for
PWBA’s complete comments.) Regarding Recommendation 1, PWBA disagreed on the need for
more enforcement efforts and stated:

       As part of our review of the recommendation to direct additional enforcement
       resources to protect cash balance plan participants’ benefit accruals, we examined
       the methodology used in this study. A number of questions came to mind as to
       whether the sampling methodology employed by the audit team was appropriate
       for reaching such a broad conclusion and whether the assumptions used to
       extrapolate the error from the sample to the overall population were correct.

       Because of these potential issues with the methodology employed in determining
       your sample size and extrapolating the error, we question the conclusion that
       “workers may be losing between $85 million and $199 million annually.”
       Consequently, unless you were able to undertake a broader survey of the problem


U.S. Department of Labor - Office of Inspector General

                                                 17
       to provide us with more detailed information, we cannot commit to redirecting
       our enforcement resources to cash balance plan benefit calculations at this time.
       However, we will continue to coordinate with the IRS on these issues and will
       take appropriate enforcement action in this area whenever it arises in one of our
       investigations.


Regarding Recommendation 2, PWBA agreed to take appropriate action but pointed out
potential limitations by stating:

       As noted above, PWBA’s enforcement oversight with regard to these issues is
       restricted due to the Reorganization Plan and ERISA section 502(b)(1), and we
       are awaiting comments from Treasury/IRS regarding the alleged violations
       identified in your report. Once these comments are received and discussed with
       the IRS, an appropriate course of enforcement action will be determined in
       connection with the 13 plans identified in your report. In that regard, there may
       be issues involving statute of limitations that may limit what enforcement actions
       can be taken. We, of course, will provide you with a copy of what we receive
       from Treasury/IRS.

On Recommendation 3, PWBA agreed to work with the IRS on developing guidance for plan
administrators on calculating lump sum distributions of accrued benefits in cash balance plans.
PWBA stated:

       It is the policy of PWBA to provide the highest quality of service to its customers-
       -over 200 million pension, health and other employee benefit plan participants
       and beneficiaries and more than 3 million plan sponsors and members of the
       employee benefit community. PWBA promotes voluntary compliance by plan
       fiduciaries and works diligently to provide quality assistance to plan participants
       and beneficiaries. The Secretary has set the protection of pension assets as a top
       priority and we welcome suggestions on ways in which we can improve our
       efforts to strengthen the nation’s pension system and to protect the pensions of
       Americans workers. After receiving the Treasury/IRS comments regarding the
       alleged violations identified in your report, we intend to work with Treasury/IRS
       on determining what additional guidance should be developed for plan sponsors
       and others in the regulated community on calculating lump sum distributions of
       accrued benefits in cash balance plans.


 OIG Response


While PWBA pointed out that the Reorganization Plan No. 4 of 1978 transferred regulatory
issuance authority to the IRS and ERISA §502 may place some potential restrictions on PWBA’s
ability to enforce ERISA §§203 and 205, the main reason for not implementing the first



U.S. Department of Labor - Office of Inspector General

                                                18
recommendation was that PWBA had questions regarding the extent of the problem. We
disagree for several reasons.

First, using one of PWBA’s measurement of enforcement success, the problems we pointed out
deserve PWBA attention. Over the last five years, PWBA’s own highly targeted enforcement
efforts have disclosed violations in an average of about 28 percent of civil cases closed. We did
not target our audit efforts yet disclosed potential violations in 13 of 60 cases or slightly more
than 20 percent. This compares very favorably despite any disagreements on dollar impact.

Also, during our review we developed review techniques which, if used by PWBA, would
substantially reduce staff time spent on non-productive cases. We would be willing to share
these techniques with PWBA.

Further, while questioning the extent of the problems in participant accrued benefits disclosed by
our review of 60 plans, PWBA has initiated a review of cash balance plan conversion fees. In
terms of potential dollar impact, participant benefits are much larger than conversion fees and
have a much greater potential impact on individual participants. While our estimate is not
statistically developed, we believe it is a reasonable proxy of the problem size.

Since PWBA is reviewing cash balance plans for conversion fee payments, PWBA could expand
the scope of that review and include participant benefits while they were reviewing the plan. We
do not understand how, given our audit results, PWBA can justify not looking at participant
benefits while they are reviewing a cash balance plan for other violations.

Therefore, we continue to believe that PWBA should initiate some enforcement effort toward
participant benefits in cash balance plans.

While PWBA did not disagree on the second and third recommendations, implementation is
dependent on the IRS response to PWBA’s request. We have no further comment until we
evaluate PWBA’s actions after they receive the IRS response.

We continue to believe that PWBA should initiate some sort of enforcement effort with respect
to participant benefits in cash balance plans. As to the legal restrictions noted by PWBA, we
believe that ERISA §502 (b)(1) may not prevent PWBA from pursuing enforcement as a breach
of fiduciary duty under ERISA §404. We believe that PWBA should request a formal opinion
from the Solicitor of Labor to determine if PWBA does have such authority.




U.S. Department of Labor - Office of Inspector General

                                                19
                                                                  APPENDIX 1
                 Conversion Dates, Participants, and Assets
                  For Plans In Audit Sample


  Plan          Conversion 1/      Active 2/       Assets 2/
 Number             Date           Participants (in thousands)
    1                1/1/98                   184          $587
    2                1/1/95                 5,407       441,584
    3                1/1/94                 5,969        63,782
    4                1/1/92                15,768       813,778
    5               10/1/86                 5,717       671,531
    6               7/22/89                   413         7,028
    7               1/01/96                   401         7,551
    8                1/1/87                 1,974        42,416
    9                1/1/87                 1,536       103,430
   10                8/1/88                   665        17,877
   11                8/1/90                   802        31,487
   12                1/1/95                   568        21,710
   13                1/1/90                 3,282        64,218
   14                1/1/98                   240         5,696
   15               10/1/89                    88         7,212
   16                1/1/99                   624         7,732
   17                1/1/95                 1,296        59,847
   18                7/1/92                     0         7,256
   19                1/1/92                 1,207        28,449
   20               10/1/88                 2,044       118,453
   21                1/1/89                   180        12,308
   22                1/1/99                 1,481         5,830
   23                7/1/96                15,615     6,500,543
   24                5/6/96                 2,513        43,996
   25                1/1/90                   369        14,928
   26                1/1/84                   175         1,565
   27                1/1/94                 1,081        27,722
   28                7/1/97                   253        11,512
   29                1/1/97                 9,621       494,811
   30                1/1/94                   538         9,656
Source: 1/ Plan Documents
        2/ 1998 Form 5500




U.S. Department of Labor - Office of Inspector General

                                                20
                                                                      APPENDIX 1
           Conversion Dates, Participants, and Assets
             For Plans In Audit Sample (continued)


 Plan      Conversion 1/          Active 2/          Assets 2/
Number         Date             Participants     (in thousands)
  31            7/2/91                     694                6,642
  32            1/1/94                     778               32,544
  33          12/31/00                     568               16,420
  34            7/1/96                     202               11,059
  35            1/1/89                  11,395               29,906
  36            1/1/98                   5,115              131,077
  37            1/1/97                     904                9,889
  38            1/1/97                   5,650              246,958
  39          12/31/94                      48               19,982
  40            4/1/96                   3,767              242,141
  41            7/1/98                   1,717              647,884
  42            1/1/96                   1,119               27,394
  43            1/1/91                   2,465              116,947
  44            1/1/91                     970               10,980
  45            1/1/94                   2,470              286,303
  46            1/1/96                   1,213               19,499
  47            7/1/97                   2,671               54,371
  48            1/1/90                  13,340              676,638
  49            8/1/98                   1,939              246,149
  50           11/1/87                   4,775              156,518
  51            1/1/99                   6,065               69,746
  52            3/1/97                   2,836              467,144
  53            1/1/98                     544               70,333
  54            1/1/96                   9,609              247,933
  55            3/1/96                  19,225            2,502,795
  56            1/1/98                     707              102,113
  57            1/1/95                  13,391              139,245
  58            1/1/98                   2,357               28,192
  59            1/1/99                  11,597            1,101,762
  60            1/1/98                   1,077               52,255
  Totals                               209,219          $17,415,307




   U.S. Department of Labor - Office of Inspector General

                                                   21
                                                                         APPENDIX 2


                 Methodology for Estimating Potential Underpayments

For each plan where we identified benefit forfeitures, we computed the forfeiture for each
participant in the sample. We then totaled the forfeitures found for the plan and divided this total
by the number of participants sampled, regardless of whether or not they had a forfeiture. This
gave us a weighted average underpayment per participant in the sample. The weighted average
underpayments ranged up to $37,578 per participant.

Since this average was not dependent on whether or not the participant had a forfeiture, we
applied this average to the total active participants in the plan as shown on the 1998 form 5500
This produced a total estimated potential underpayment for active participants in the plan. The
estimated underpayments in the sampled plans ranged up to $214,835,332.

To determine a point estimate for each plan, we totaled the potential underpayments and divided
this total by the number of plans in our sample (60). Estimated underpayments totaled
$373,680,103 which, when divided by 60 plans reviewed, produced a plan point estimate
underpayment of $6,228,002 for each plan in the sample. Developing this plan point estimate
provided us with a per plan estimate that we used in developing an estimate for the universe.

To determine how much of this underpayment could occur each year, we used a turnover rate
developed by the Department of Education, Bureau of Labor and Employment Statistics and
published in their Employment, Hours, and Earnings Survey. This survey showed non-
agricultural establishments employing 100 and over had an average turnover rate of 4.622
percent.

Recognizing that this turnover rate included retirees who did not leave employment before
normal retirement age, we obtained data from the Employee Benefit Research Institute that
showed 99.4 percent of participants receiving lump sum payments were under age 65. This was
consistent with our sample participants with forfeitures, which only included participants under
age 65.

The application of this turnover rate (4.622 percent) to the total estimated underpayment in our
plans with forfeitures of $373,680,103 produced an estimated underpayment per year in the
sampled plans of $17,271,494. Reducing this to account for only lump sum recipients under age
65, we multiplied the $17,271,494 by 99.4 percent and concluded participants in these plans
could be underpaid an estimated $17,167,865 per year.




U.S. Department of Labor - Office of Inspector General

                                                 22
                                                                               APPENDIX 2



                Methodology for Estimating Potential Underpayments
                                      (Continued)

The application of this turnover rate (4.622 percent) to the point estimate underpayment for all
plans of $6,228,002 produced an estimated annual underpayment per plan of $286,488.
Reducing this to account for only under age 65 participants (99.4 percent) reduced this figure to
$284,769. During the audit, we obtained a range of estimated converted cash balance plans of
between 300 and 2,900 plans. However, most industry estimates were from 300 to 700
converted plans. Therefore, we applied the estimated potential annual underpayment of
$284,769 to this range, which produced a range of estimated potential underpayments of
$85,430,745 to $199,338,406.1




1
 The above estimated numbers were obtained doing calculations with a Corel® QuattroPro™ spreadsheet
application. Slightly different results may be obtained using other methods due to rounding.



U.S. Department of Labor - Office of Inspector General

                                                     23
                                                             APPENDIX 3

                                          Acronyms

COLA           Cost of Living Adjustment
CPI            Consumer Price Index
EEOC           Equal Employment Opportunity Commission
ERISA          Employee Retirement Income Security Act
IRC            Internal Reve nue Code
IRS            Internal Revenue Service
OIG            Office of Inspector General
PBGC           Pension Benefit Guaranty Corporation
PWBA           Pension and Welfare Benefits Administration




U.S. Department of Labor - Office of Inspector General

                                                24
U.S. Department of Labor - Office of Inspector General

                                                25
U.S. Department of Labor - Office of Inspector General

                                                26
U.S. Department of Labor - Office of Inspector General

                                                27
